                                                                                                             ---T   -



                                                        NATIONAL SCIENCE FOUNDATI

                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM




          This plagiarism case involved the subject's' proposal that contained copied text from a proposal
          by the complainant2. The complainant had been one of the reviewers of the subject's proposal3.
          There was a de minimis amount of copied text in the subject's proposal. Due to the fragmentary
          nature and small amount of copied material, no further action will be taken.

                    Accordingly, this case is closed.




NSF OIG Fonn 2 (1 1102)
